Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




DIETARY SUPPLEMENT LABELS:
      AN ASSESSMENT




                     JANET REHNQUIST
                     INSPECTOR GENERAL

                      MARCH 2003
                      OEI-01-01-00121
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                          EXECUTIVE                       SUMMARY
OBJECTIVE

          To assess the extent to which existing dietary supplement labels reflect the key elements
          identified in our dietary supplement label template.

BACKGROUND
          In 1994, Congress passed the Dietary Supplement Health and Education Act (DSHEA).
          DSHEA defined the term “dietary supplement” to include substances, such as vitamins,
          minerals, botanicals, and amino acids. The Food and Drug Administration (FDA) has primary
          oversight responsibilities for dietary supplements and their labels.

          Widespread Use of Dietary Supplements. An estimated 70 percent of the U.S. population,
          or 152 million people, tried at least one dietary supplement in 2001. Dietary supplements are
          nearly a $17 billion industry.

          Benefits and Risks of Dietary Supplements. Dietary supplements have potential health
          benefits, but may also pose safety risks. For example, calcium and vitamin D supplementation
          can help to reduce bone loss in the elderly. Yet, FDA has received reports of adverse events
          associating ephedra with heart attacks, strokes, seizures, and high blood pressure.

          Importance of Dietary Supplement Labels. In DSHEA, Congress recognized the
          importance of labels, calling for them to include information, such that “consumers may make
          informed and appropriate health care choices for themselves and their families.” Labels can be
          particularly significant given that dietary supplements are often used as self-care products and
          labels are an easily accessible source of information. Furthermore, label oversight is a key
          regulatory tool for FDA to promote the safe use of dietary supplements among consumers.

          Concerns about Dietary Supplement Labels. Our 2001 report entitled Adverse Event
          Reporting for Dietary Supplements: An Inadequate Safety Valve (OEI-01-00-00180)
          highlighted the need for consumers to have more complete information about dietary
          supplements than is currently required. In 2000, the General Accounting Office cited problems
          with label content for dietary supplements.

          Consumer Health Information for Better Nutrition Initiative. In December 2002, FDA
          announced the Consumer Health Information for Better Nutrition Initiative, which seeks to
          enhance the credibility of food and dietary supplement labels through the inclusion of more
          accurate, science-based information. This multi-part initiative includes the publication of
          guidance on qualified health claims for conventional foods and dietary


Dietary Supplement Labels: An Assessment              i                              OEI-01-01-00121
          supplements, strong enforcement of dietary supplement rules, and the establishment of an FDA
          task force on consumer health information for better nutrition.

          This Report. We performed an original analysis of the labels of 100 dietary supplements that
          consumers commonly use in order to examine the current state of labels in relation to our
          template of key label elements. That template, which was designed to identify key elements
          that can increase the potential for dietary supplement labels to help consumers make informed
          and appropriate choices about supplement use, is described in detail in our companion report,
          Dietary Supplement Labels: Key Elements (OEI-01-01-00120).

          We supported the observations from our label analysis by interviewing 76 key stakeholders,
          such as regulators, industry representatives, and consumer groups, and 7 focus groups with
          consumers and health professionals. We also integrated data from industry groups and
          independent research organizations, and conducted a comprehensive literature review on
          supplement use and labels, including congressional testimony and national survey data on
          supplement use.

FINDINGS

          Our analysis suggests that dietary supplement labels fail to adhere to the key elements in our
          template. We found that the labels are limited in their ability to guide the informed and
          appropriate use of supplements among consumers and often do not present information in a
          manner that facilitates consumer understanding.

          In part, the current state of labels is due to the absence of a standardized format for the
          presentation and type of information given on the label. Moreover, FDA lacks clearly defined
          standards for disclosing safety information and for ensuring product authenticity.
          In their current state, dietary supplement labels could potentially lead consumers to use
          supplements inappropriately. In fact, consumers and health professionals in our focus groups
          expressed that labels were often not a useful source of information and noted that they may
          disregard them or to turn to alternative sources of information about supplement use.

Dietary Supplement Labels Fail to Adhere to the Key Elements in Our Template.

          Our sample of 100 labels did not meet nine of the ten elements in our template. For a full
          description of the template, which was designed to identify key elements that can increase the
          potential for dietary supplement labels to help consumers make informed and appropriate
          choices about supplement use, see our companion report, Dietary Supplement Labels: Key
          Elements (OEI-01-01-00120).




Dietary Supplement Labels: An Assessment              ii                             OEI-01-01-00121
          Labels often fail to provide sufficient information to guide the informed and
          appropriate use of supplements.

          <	 Ingredient information is often difficult to interpret. Supplement labels often fail to
             provide enough detail about supplement composition for users to understand exactly about
             what they are taking. Of the 100 labels we reviewed, 93 did not make clear which
             ingredients were active and 94 did not make clear the extent to which ingredients were
             bioavailable (absorbed in the body); all of the 15 privately-held formulations (proprietary
             blends) lacked information on the amount of individual ingredients.

          <	 Statements of intended use often provide limited information. Supplement claims we
             examined are often confusing to consumers because they do not adequately convey the
             intended use of the supplement. Consumers and health professionals in our focus groups
             could not distinguish between types of claims.

          <	 Safety information is often incomplete. From our sample of 100 labels, 89 lacked
             information about adverse reactions or side effects, 87 about interactions, 85 about
             maximum dose, 61 about contraindications, and 25 about expiration. Even when labels did
             include these types of information, we found that warning statements varied in detail.

          <	 Directions for use are often insufficient. Supplement labels are required to list a
             serving size, but not necessarily recommended daily dose. When that information is listed, it
             can be difficult to interpret. For example, dose information may be described in relation to
             a symptom, but the boundaries of that symptom may not be clear.

          Labels often fail to present information in a manner that facilitates consumer
          understanding.

          <	 No standardized format exists. There is little consistency in how important categories of
             information are referenced on labels. For example, of the 66 supplements in our sample
             packaged in bottles, 13 had safety information to the right of the front panel, 14 had the
             information to the left, and 39 did not have that information at all.

          <	 Supplement labels have few distinguishing features. Some of the supplement labels
             in our sample were suggestive of pharmaceutical products. We found examples of
             supplements that contained pictures of people wearing physician lab coats and stethoscopes
             and that had product names like “Prescribed Choice.”

          <	 Complex language and small font size inhibit readability. This prevents a broad
             range of consumers from easily reading and understanding label information. A number of
             elderly consumers in our focus groups and some health professionals had a difficult time
             reading supplement labels and understanding the terminology used.


Dietary Supplement Labels: An Assessment             iii                            OEI-01-01-00121
          <	 Information on benefits and risks is often imbalanced. Unequal space is often given
             to product benefits compared to risks. For example, 69 of the labels in our sample
             contained statements about a supplement’s potential benefits, but 38 of those did not
             disclose any safety information.

Several Factors Inhibit Supplement Labels From Adhering to Our Template.

          Lack of clearly defined FDA standards. No uniform standards exist to guide manufacturers
          in determining what constitutes a ‘material fact’ requiring safety information to be placed on
          supplement labels. Furthermore, FDA has not defined standards for the amount and kinds of
          evidence necessary to substantiate claims. Without clearly defined standards, manufacturers
          find it is difficult to achieve a level playing field.

          Few measures for ensuring product authenticity. Neither an official monograph system nor
          validated testing methods for supplements exist, making it difficult for manufacturers to ensure
          ingredient quality and potency. The lack of such measures contributes to inconsistent
          supplement preparations and label declarations.

          Limited wording of claims. Manufacturers have difficulty in clearly expressing the benefits of
          dietary supplements on labels because of restrictions in how claims may be worded.

Evidence Suggests that Consumers and Health Professionals Find Supplement
Labels of Limited Use.

          Our focus groups pointed to mistrust of the label as one of the main reasons why consumers
          turn to other sources of information, such as health professionals. However, health
          professionals’ limited knowledge about supplements and difficulty in interpreting labels inhibit
          many of them from serving as a resource for supplement users. According to a recent survey,
          only a third of consumers were very confident in the accuracy of information found on
          supplement labels.

CONCLUSION

          Our analysis of 100 dietary supplement labels found that few reflected the label elements that
          our template identified as key to guiding the informed and appropriate use of supplements
          among consumers. These findings were confirmed by our interviews and focus groups, as well
          as by independent data analyses and professional literature. Our analysis also found that
          several barriers may prevent manufacturers from developing labels that can adhere to our
          template, and that the current state of supplement labels may limit the extent to which
          consumers and health professionals use labels.




Dietary Supplement Labels: An Assessment              iv                             OEI-01-01-00121
          We recognize that FDA has numerous efforts underway to address the current state of dietary
          supplement labels, and that limited resources, limited scientific evidence about the safety and
          efficacy of supplements, and competing priorities inhibit FDA’s capacity to make timely
          progress. Our analysis is designed to assist FDA as it addresses the legal framework related to
          dietary supplement labels, and as it reviews its standards for disclosing safety risks on labels,
          substantiating evidence related to label claims, and developing analytical methods and reference
          materials for testing supplements.




Dietary Supplement Labels: An Assessment              v                              OEI-01-01-00121
                           TABLE                          OF             CONTENTS
                                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


PRIMER ON DIETARY SUPPLEMENT LABELS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS


          Dietary supplement labels fail to adhere to the key elements in our template . . . . . . . . . . . . . . 5


          Several factors inhibit supplement labels from adhering to our template. . . . . . . . . . . . . . . . 19


          Consumers and health professionals find labels of limited use . . . . . . . . . . . . . . . . . . . . . . . . 23


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


APPENDICES


          A: Template of key elements for dietary supplement labels . . . . . . . . . . . . . . . . . . . . . . . . . . 27


          B: Information included on supplement labels . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


          C: FDA initiatives related to dietary supplements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


          D: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31


          E: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38





Dietary Supplement Labels: An Assessment                                                                         OEI-01-01-00121
                                       INTRODUCTION

OBJECTIVE

          To assess the extent to which existing dietary supplement labels reflect the key elements
          identified in our dietary supplement label template.

BACKGROUND

          In 1994, Congress passed the Dietary Supplement Health and Education Act (DSHEA).
          DSHEA defined the term “dietary supplement” to include substances, such as vitamins,
          minerals, botanicals, and amino acids. It also created a new legal framework for dietary
          supplements and expanded the information that could be placed on labels.

Widespread Use of Dietary Supplements

          An estimated 70 percent of the U.S. population, or 152 million people, tried at least one dietary
          supplement in 2001.1 Many consumers use supplements to enhance their nutritional intake or to
          maintain their health and well-being, while others hope to improve their energy levels and to
          prevent or treat common illnesses. The dietary supplement industry has responded to consumer
          demand by marketing an increasing number and variety of supplements. The Food and Drug
          Administration (FDA) estimates that about 29,000 dietary supplements are on the market.2
          Dietary supplements are now nearly a $17 billion industry.3

Benefits and Risks of Dietary Supplements

          The growth of the dietary supplement market presents greater potential for consumers to
          experience the benefits of supplement use, and at the same time increases the chance that
          consumers will encounter safety risks. For example, the long-term consumption of vitamin C
          supplements may reduce the development of age-related lens opacities, and dietary calcium and
          vitamin D supplementation may help to reduce bone loss in the elderly. Yet, FDA has also
          received reports of adverse events associating ephedra with heart attacks, strokes, seizures,
          and high blood pressure, and kava kava with liver damage.

Importance of Dietary Supplement Labels

          In DSHEA, Congress recognized the importance of labels, calling for them to include
          information, such that “consumers may make informed and appropriate health care choices for
          themselves and their families.” Within FDA, the Center for Food Safety and Applied Nutrition
          (CFSAN) has the authority to regulate supplements by issuing labeling rules and good
          manufacturing practice (GMP) regulations to the dietary supplement


Dietary Supplement Labels: An Assessment              1                              OEI-01-01-00121
          industry and by monitoring adverse events related to supplement use. However, supplement-
          specific GMP regulations have not been issued, and the adverse event system is still being
          enhanced. Therefore, label oversight can serve as a key regulatory tool for promoting the
          informed and appropriate use of dietary supplements among consumers.

          It is especially important for labels to provide objective and accurate information on supplement
          usage to balance the claims about supplements that consumers learn about through
          advertisements. In our brief review of advertisements, which are regulated by the Federal
          Trade Commission (FTC), we found dietary supplements claiming to bring relief from crippling
          pain within days, and herbal weight loss formulas claiming to help individuals lose 70 pounds in
          8 weeks with no calorie counting and no hunger.

Concerns about Dietary Supplement Labels

          Our 2001 report entitled Adverse Event Reporting for Dietary Supplements: An
          Inadequate Safety Valve (OEI-01-00-00180) highlighted the need for consumers to have
          more complete information about dietary supplements than is currently required. In 2000, the
          General Accounting Office cited problems with label content for dietary supplements.4
          Concerns have also been raised by consumer and industry groups, federal and state regulators,
          and the media.

Consumer Health Information for Better Nutrition Initiative

          In December 2002, FDA announced the Consumer Health Information for Better Nutrition
          Initiative, which seeks to enhance the credibility of food and dietary supplement labels through
          the inclusion of more accurate, science-based information. This multi-part initiative includes the
          publication of guidance on qualified health claims for conventional foods and dietary
          supplements, strong enforcement of dietary supplement rules, and the establishment of an FDA
          task force on consumer health information for better nutrition. In a report on dietary supplement
          enforcement, which accompanied the announcement of the initiative, FDA stated its intention to
          develop mechanisms to communicate critical information and useful strategies about dietary
          supplements to consumers.5

Methodology

          Our analysis of dietary supplement labels was based on our template of the key elements of a
          label as described in our companion report Dietary Supplement Labels: Key Elements (OEI-
          01-01-00120). The template was developed in response to FDA’s request that we present a
          vision of the kind of label that could serve to better assist consumers in making informed and
          appropriate choices about supplement use.

          We performed an original analysis of the labels of 100 products that consumers recognize as
          dietary supplements and commonly use. For a summary of our label analysis, see Appendix B.
          We obtained the products from supermarkets, pharmacies, and natural food stores in the
          greater Boston area and from samples distributed at industry conferences.

Dietary Supplement Labels: An Assessment              2                               OEI-01-01-00121
          Our diverse sample, which represents 36 manufacturers and 36 distributers, was a judgmental
          one. Without the existence of an official registry of the number and types of supplements on the
          market, we could not conduct probability sampling.

          We also conducted 76 interviews with federal and state regulators, each of the major
          supplement industry trade groups, consumer advocacy groups, private quality oversight
          organizations, professional nutrition associations, academic researchers, marketers, and
          practicing herbalists. To learn more about specific concerns facing particular groups of
          supplement users, we conducted 7 focus groups with consumers and with health care
          professionals, and reviewed the findings of other focus groups.

          We reviewed relevant federal legislation and regulation, as well as other materials prepared by
          government agencies, trade organizations, and consumer groups related to dietary supplements
          and supplement use. As part of our literature search, we reviewed existing data from national
          surveys on consumer use of dietary supplements and their labels, as well as data on the
          economic characteristics of the supplement industry.

          For a more detailed description of our methods, see Appendix D.

This Report and its Companion Report

          This report assesses the extent to which existing dietary supplement labels reflect the key
          elements identified in our dietary supplement label template. Our findings are based on an
          original analysis of the labels of 100 dietary supplements that consumers commonly use and
          supported by interviews, focus groups, independent data analyses, and professional literature.

          Our companion report, Dietary Supplement Labels: Key Elements (OEI-01-01-00120)
          provides more detail on the template. At the request of FDA, we designed a template to
          identify key elements that can increase the potential for dietary supplement labels to help
          consumers make informed and appropriate choices about supplement use. The template
          represents common ideas from a broad group of stakeholders and is intended to be a
          framework that government officials, consumer groups, industry representatives, academics,
          and others can use as they seek to find common ground on the specific content and
          presentation of labels.
.
          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Dietary Supplement Labels: An Assessment             3                              OEI-01-01-00121
           PRIMER ON DIETARY SUPPLEMENT LABELS
What is a Dietary Supplement?
The Dietary Supplement Health and Education Act of 1994 (DSHEA) defines the term “dietary supplement” to mean
“a product (other than tobacco) intended to supplement the diet that bears or contains one or more of the following
dietary ingredients: a vitamin, a mineral, an herb or other botanical, an amino acid, a dietary substance for use by man
to supplement the diet by increasing the total dietary intake, or a concentrate, metabolite, constituent, extract, or
combination of any of the aforementioned ingredients.” Furthermore, a dietary supplement must be labeled as a
dietary supplement and be intended for ingestion and must not be represented for use as conventional food or as a
sole item of a meal or of the diet. In addition, a dietary supplement cannot be approved or authorized for
investigation as a new drug, antibiotic, or biologic, unless it was marketed as a food or a dietary supplement before
such approval or authorization. Under DSHEA, dietary supplements are deemed to be food, except for purposes of
the drug definition.

What is a Dietary Supplement Label?
A‘label’ is a display of written, printed, or graphic matter upon the immediate container of any article. In contrast,
‘labeling’ is a more general term that includes the label and other written, printed, or graphic matter upon any article
or any of its containers or wrappers, or accompanying the article.

What is Currently Required on a Dietary Supplement Label?
DSHEA and other federal regulations require the following information to appear on dietary supplement labels:

  C a statement of identity that contains the words                   C a complete list of ingredients by their common or
  “dietary supplement.” The word “dietary” may be                     usual names, either in descending order of prominence
  replaced by the name of the dietary ingredient (e.g.,               or with the source of the dietary ingredient in the
  “ginseng supplement”);                                              “Supplement Facts” panel following the name of the
                                                                      dietary ingredient (e.g., calcium (from calcium
  C net quantity of contents (e.g., “60 capsules”);                   carbonate));

  C nutrition information in the form of a “Supplement                C safety information that is considered “material” to
  Facts” panel, including the product serving size, the               the consequences that may result from the use of the
  amount, and percent daily value, if established, of                 supplement; and
  each dietary ingredient;
                                                                      C the disclaimer “This statement has not been
  C if a supplement contains a proprietary blend, the                 evaluated by the Food and Drug Administration. This
  net weight of the blend as well as a listing of each                product is not intended to diagnose, treat, cure, or
  ingredient in descending order of weight must be                    prevent any disease” if the supplement bears a claim
  identified;                                                         to affect the structure or function of the body
                                                                      (structure/function claim), a claim of general well-
  C the part of the plant used, if an herb or botanical;              being, or a claim of a benefit related to a classical
                                                                      nutrient deficiency disease.
  C the name and place of business of the
  manufacturer, packer, or distributor;
At their discretion, manufacturers may add additional information on labels (such as claims and statements of quality
assurance), and may decide on the placement of that information on their labels.

Who Oversees Dietary Supplement Labels?
The Food and Drug Administration (FDA) is the federal agency primarily responsible for regulating dietary
supplements and their labels. FDA regulates supplements in a post-market system, meaning manufacturers are
allowed to market supplements without prior authorization. FDA has the burden of proof to show that a supplement
presents a significant or unreasonable risk of illness or injury if taken as instructed on the label, or is otherwise
adulterated. FDA also has the burden of proof to show that label information is misleading or not true. To establish
proof, FDA conducts field exams, tests supplement ingredients, and reviews label claims. As necessary, FDA may
take actions through courtesy letters, warning letters, recalls, seizures, and injunctions.




Dietary Supplement Labels: An Assessment                          4                                       OEI-01-01-00121
                                           FINDINGS

          We found that few dietary supplement labels in our sample met the elements identified in our
          template, which was designed to help consumers make informed and appropriate choices about
          supplement use. Important information related to ingredients, intended use, safety, and
          directions for use was often incomplete, inconsistent, or missing for supplement labels in our
          sample. Labels also often failed to present information in a manner that facilitates understanding
          among consumers. No standardized format exists for labels, and labels have few distinguishing
          features to help consumers differentiate supplements from other self-care products.

          We drew on several sources of data for this analysis. To assess the extent to which existing
          labels adhere to the elements identified in our template, we performed an original analysis of
          100 products that consumers recognize as dietary supplements and commonly use. The
          template is detailed in our companion report Dietary Supplement Labels: Key Elements
          (OEI-01-01-00120). We supported those findings with 76 stakeholder interviews with
          regulators, industry representatives, and consumer groups, as well as 7 focus groups with
          consumers and health professionals. We also reviewed relevant literature, laws, and
          regulations, including congressional testimony, FDA consumer studies, and national survey data
          on supplement use.

Dietary Supplement Labels Fail to Adhere to the Key Elements in
Our Template.

          Consumers need accurate and sufficient information on labels to make informed and
          appropriate choices about supplement use. This is particularly important, given the widespread
          use of dietary supplements as self-care products, and the relative lack of other reliable sources
          of information.

          In our companion report entitled Dietary Supplement Labels: Key Elements
          (OEI-01-01-00120), we
          presented the template of the key                    Template of Key Label Elements
          elements of a label that can help
          consumers make informed and             Content                    Presentation
          appropriate choices about
                                                  U Ingredients              U Standardized format
          supplement use. (see box for a list
          of those elements.) We used the         U Intended use             U Distinct product features
          current federal requirements for        U Safety information       U Readability
          supplement labels as a starting
                                                  U Directions for use       U Balance
          framework. We then incorporated
          the feedback from our interviews,       U Product information      U Constructive use of space
          focus groups, and literature
          reviews. The template sets forth a
          framework for key

Dietary Supplement Labels: An Assessment                5                               OEI-01-01-00121
          label elements in terms of essential information and precepts for presenting that information. In
          this report, we assess the extent to which existing dietary supplement labels reflect the key
          elements identified in our dietary supplement label template. When our assessment applies
          primarily to one type of supplement, we note it in the text. We organize our review by template
          element (see Appendix A for a complete description of the template).

Labels Often Fail to Provide Sufficient Information to Guide the Informed and
Appropriate Use of Supplements.

          We found that supplement labels routinely lack information or contain confusing information in
          four areas of our template: ingredient composition, intended use, directions for use, and safety
          information. Our label review, focus groups, and interviews with key stakeholders raised few
          concerns related to a fifth element: product information.


                              Ingredient information is often difficult to interpret.

          Supplement labels ought to provide accurate and sufficient detail about supplement composition

          for users to understand exactly what they are taking. Without such information, consumers may

          be putting their health at risk by overdosing on certain ingredients, or they may be spending

          money on supplements that are not formulated to meet their needs.


          Labels with testing guarantees often give misleading assurances of ingredient quality.

          In our review of 100 labels, we found several labels containing their own symbols and

          statements guaranteeing ingredient

          testing and quality. These guarantees
             Potentially misleading symbols related
          often appear to be misleading,                       to the testing of ingredient quality:
          indicating no clear basis of what
          supports them (see box for
          examples). One health provider told
          us that when she called a company to
          determine their standardization
          criteria, a company representative
          told her “the company standardizes
          its products to excellence.” A
          number of the regulators and health professionals we spoke with raised concerns that such
          statements and symbols can mislead consumers.

          Labels often do not clearly distinguish active ingredients from inactive ones. Ninety-
          three out of the 100 labels we reviewed did not make clear which ingredients were active.
          Some of the labels contained discussion about active properties, but it was difficult to determine
          whether this was marketing hype or factual information. DSHEA does not require dietary
          supplement labels to make clear which ingredients are active. Without being able to distinguish
          the active ingredients from the nonactive ones, it can be difficult



Dietary Supplement Labels: An Assessment                6                               OEI-01-01-00121
          for consumers to assess products’ content and to compare supplements in an informed manner.

          Furthermore, 94 of the labels we reviewed did not make clear the extent to which ingredients
          could be absorbed into the bloodstream (bioavailability). A few labels alluded to
          bioavailability, disintegration, or time release, but did make not clear to what extent the
          ingredients were available for absorption. DSHEA does not require dietary supplement labels
          to make clear the extent of bioavailability of ingredients. Without this information, consumers
          and health care professionals cannot readily assess product efficacy or the potential for adverse
          reactions. The bioavailability of a supplement may depend on the form in which a supplement is
          taken. For example, the bioavailability of an ephedrine extract is far greater than the
          bioavailability of the unprocessed herb.

          Ingredient names may be inconsistent across supplement labels. This is particularly
          problematic for botanical supplements, which account for a quarter of dietary supplement
          sales.6 FDA labeling regulations for herbal supplements require that ingredients be listed under
          their Latin binomial names, except when they are listed in the Herbs of Commerce.7 However,
          even the Herbs of Commerce contains multiple common names in some instances. One
          commonly cited example relates to products containing ephedra. The species Ephedra
          equisetina may be called Chinese joinfir, ma huang, ephedra, or Chinese ephedra. A second
          species, Ephedra nevadensis, may be referred to as Mormon tea, Brigham-tea, or desert tea.
          Similarly, Echinacea angustifolia may be listed as echinacea, narrow-leaved echinacea,
          Kansas snakeroot, or narrow-leaved purple coneflower. Consumers may be unaware of the
          existence of multiple common names, and may end up purchasing several products containing
          the same ingredients. In fact, one of the health professionals in our focus groups shared a story
          of a patient who was taking three different weight loss supplements without realizing that all
          three contained Ephedra, thus putting herself at a potential risk for overdose.

          Supplement Facts panel may be of limited usefulness to consumers. The Supplement
          Facts panel provides important ingredient information, including the recommended serving size
          and the corresponding percent daily value. Many of the regulators, consumers, and health
          professionals we interviewed told us that the uniform format of the Supplement Facts panel has
          been very effective as a means of standardizing information




Dietary Supplement Labels: An Assessment              7                              OEI-01-01-00121
          consumers to more easily find and                  The Percent Daily Value column makes little
                                                                  sense for botanical supplements:
          compare ingredient information.

          However, many of these same
          interviewees raised concerns about the
          usefulness of the Supplement Facts panel.
          They pointed out that the format of the
          panel makes little sense for botanical and
          specialty substances, which do not have
          established Referenced Daily Intakes
          (RDI) or Daily Reference Values (RDV)
          (see box to right). Moreover, some
          nutritionists and health care professionals
          we spoke with questioned the current RDI
          for vitamins and suggested that quantities greater than the 100 percent of the RDI may be
          beneficial when these products are taken for therapeutic purposes.

          Labels often do not provide information about the quantity of individual ingredients
          in “proprietary blends.” DSHEA requires that proprietary blends (in which the supplement
          formulation is privately-held) declare on the label the net weight of the blend and list the
          ingredients in descending order of weight. The labels are not required, however, to list the
          specific quantities of each individual ingredient. None of the 15 supplements containing
          proprietary blends that we reviewed during our inquiry disclosed any information about the
                                                      amount of individual ingredients.
                Limited disclosure of ingredient
              information in ‘proprietary blends’:   Yet, information about the quantity of specific
                                                     ingredients can be important for supplements that
                                                     contain pharmacologically active substances, such as
                                                     St. John’s Wort or Ephedra. As blended products
                                                     become an increasing segment of the herbal market,
                                                     concerns about the lack of disclosure for the amount
                                                     of individual ingredients becomes more pressing (see
                                                     box to left). The propriety blend provision was
                                                     initially written into FDA label regulations to protect
                                                     proprietary recipes in an environment in which there is
                                                     no patent protection. However, several interviewees
                                                     raised concern that the proprietary blend provision is
                                                     specifically being used by some manufacturers to
                                                     avoid full disclosure of ingredients.




Dietary Supplement Labels: An Assessment              8                                OEI-01-01-00121
                      Statements of intended use often provide limited information.

          FDA label regulations do not require that supplement labels contain information about the
          intended use of the supplement, although they do allow manufacturers to make certain types of
          claims about the supplement’s benefits. Many manufacturers use structure/function claims,
          health claims, or qualified health claims to communicate to consumers the intended use(s) of
          their supplements.

          Structure/function claims are statements that a
          supplement will affect the body’s structure               The disclaimer required to accompany
                                                                          structure/function claims:
          (such as the skeletal system) or one of its
          functions (such as circulation). These claims        “This statement has not been evaluated by
          were first permitted on dietary supplements for      the Food and Drug Administration. This
          non-nutritive purposes by DSHEA. These               product is not intended to diagnose, treat,
                                                               cure, or prevent any disease.”
          claims must be accompanied by a disclaimer
          (see box to right).

          A health claim is a statement that expressly or by implication characterizes the relationship of a
          nutrient in a supplement to a disease or health-related condition. These claims were permitted
          on dietary supplements under the Nutrition Labeling and Education Act of 1990. No disclaimer
          is required to accompany a health claim.

          A qualified health claim is similar to a health claim in the statements it can make, but is more
          tentative in its tone and may be required to be accompanied by a disclaimer. Qualified claims
          have only recently been permitted on dietary supplements as result of court cases.

          Structure/function claims often do not clearly communicate intended use.
          Structure/function claims constitute the vast majority of all claims on supplements, with as many
          as 12,000 supplements making a structure/function statement (see box to left for examples). A
                                                                   number of our interviewees, including
                      Typical structure/function claims            health professionals, consumer groups,
                         found on dietary supplements:             and industry representatives, raised
                                                                   concerns that structure/function claims
           “Promotes well-being”
           “Cerebral circulation”

                                                                   are often worded in a confusing way, and
           “Supports joint function”                               in many cases are too general to be

           “Promotes fast and accurate thinking”                   meaningful. They highlighted the fact that

           “For bone health”                                       vague wording could lead to

           “May support women’s needs”
                                                                   inappropriate use of the supplements. 





Dietary Supplement Labels: An Assessment               9                                   OEI-01-01-00121
          During our review of supplement labels we found the claim of “promotes well-being” on
          Ginseng, Echinacea, SAMe, and St. John’s Wort supplements. This statement, which is
          characteristic of the way in which structure/function claims are worded, does not disclose the
          ways in which the supplements promote well-being, the aspects of well-being targeted by the
          supplements, or the conditions under which the supplements should be taken. Furthermore,
          consumers may mistakenly think that St. John’s Wort, Echinacea, SAMe, and Ginseng
          supplements with the same claim are interchangeable, when in fact they are not.

          Health claims and qualified health claims may also be of limited value to consumers.
          Currently, there are 19 authorized health claims for dietary supplements. Although the
          consumers and health professionals in our focus groups liked the specificity of health claims and
          qualified claims, they did not find them to be user-friendly. The length of the claims and
          complexity of the language made it difficult for them to understand the underlying message. The
          tentative tone of the claims further obscured the underlying message. Consumers in our focus
          groups expressed more confidence in the
          shorter, more direct statements in
          structure/function claims, and stated that       Authorized Health Claim Found on Calcium
          they were likely to ignore health claims and     Products:
          qualified health claims.                         “Regular exercise and a healthy diet with enough
                                                             calcium helps teen and young adult Caucasian
          Our focus group participants raised two            women maintain good bone health and may reduce
                                                             their risk of osteoporosis later in life.”
          major concerns about the authorized
          health claim for calcium and osteoporosis          Recently Authorized Qualified Health Claim for
                                                             Omega-3 Fatty Acids:
          (see box). First, they were confused as to
          why the claim singled out benefits to              “It is known that diets low in saturated fat and
          certain groups (i.e., teens and young adult        cholesterol may reduce the risk of heart disease.
                                                             The scientific evidence about whether omega-3
          Caucasian women) and not others. It was            fatty acids may reduce the risk of coronary heart
          not clear to them whether products                 disease (CHD) is suggestive, but not conclusive.
          carrying this claim would be beneficial to         Studies in the general population have looked at
          consumers of other ages and races.                 diets containing fish and it is not known whether
                                                             diets or omega-3 fatty acids in fish may have a
          Second, many of consumers and health               possible effect on a reduced risk of CHD. It is not
          professionals in our focus groups were             known what effect omega-3 fatty acids may or may
          concerned by the word ‘may,’ because               not have on risk of CHD in the general population.”
          they believed that it detracted from the
          certitude of the statement.

          Currently, there are three authorized qualified health claims. Our focus group participants’
          primary concerns about the qualified claim for omega-3 fatty acids and coronary heart disease
          (see box) centered on the seemingly contradictory language of the claim. For example, the
          health professionals were concerned that a long statement of potential evidence followed by a
          statement beginning “It is not known” would seem contradictory to consumers. They also
          believed that terms, such as “suggestive but not conclusive,” might confuse consumers.




Dietary Supplement Labels: An Assessment                10                                   OEI-01-01-00121
          Consumers and health professionals often have difficulty differentiating between
          health claims and structure/function claims. We found that none of the consumers and
          health professionals in our focus groups were able to distinguish between health claims and
          structure/function claims. FDA found similar results in the nine consumer focus groups it
          conducted.8 The presence of the FDA disclaimer may help consumers distinguish between
          structure/function claims and health claims because a health claim does not require a disclaimer.
          However, neither the consumers nor the health professionals in our focus groups could make
          the link between the disclaimer and the presence of a structure/function claim.

          Moreover, in its review of dietary supplement claims, the General Accounting Office suggested
          that consumers may incorrectly equate products claiming to maintain health (structure/function
          claims) with products claiming to reduce the risk of disease (health claims), and thus may
          attempt to treat a disease with a product not capable of producing that benefit. If consumers
          do not appreciate the difference in the amount of regulatory oversight for each type of claim,
          they cannot factor information about the credibility of a product’s claim into their purchasing
          decision.

          Auxiliary statements on labels may lead to false expectations about the purposes or
          efficacy of supplements. In our review of 100 supplement labels, we found 12 that claimed
          to be scientifically tested. While “clinically tested” or “scientifically proven” may be a valid
          claim, it also has the potential to mislead consumers into thinking that a supplement has been
          tested in a pre-market fashion akin to prescription drugs, and thus may create a false perception
          of proven safety and efficacy. FDA’s focus group research found that some consumers believe
          that supplement manufacturers conduct controlled clinical trials to test the efficacy of specific
          supplements, when in fact few do. Many of the health professionals and consumer advocacy
          groups we spoke with believed that, if manufacturers were going to put such statements on their
          labels, they should include information on the type of trial conducted and the dose used during
          the clinical trial. However, of the 12 labels, which claimed to be clinically tested or scientifically
          proven, 9 did not provide a reference for the research claimed.

          Many supplements lack any type of claim, and thus provided no information to
          consumers on the purposes of the supplement. FDA estimates that there are 29,000
          supplements on the market. Yet, FDA has authorized only 19 health claims, and received
          notification letters for almost 12,000 structure/function claims since the passage of DSHEA.
          Based on these numbers, it appears that many labels contain no claims. In fact, in our sample
          of 100 supplements, 31 did not provide any information to the consumer on the purpose of the
          supplement. Since there are no approved mechanisms for communicating intended use on a
          label other than claims, this suggests that a large number of supplements may not communicate
          the supplement’s purpose(s). Such information may be particularly important for those
          supplements that have no clear nutritive value.




Dietary Supplement Labels: An Assessment               11                               OEI-01-01-00121
                                      Safety information is often incomplete.

          While the vast majority of supplements appears to be safe within a broad range of intake, some
          supplements can have adverse effects. Because consumers are typically taking supplements on
          their own initiative and often in combination with other products, it is essential that they have
          enough safety information to take supplements in an informed and appropriate manner.9

          Many labels provide insufficient information on maximum doses. Eighty-five of the 100
          labels we reviewed did not contain a clear statement about maximum dose. Such information is
          critical for supplements which, if taken in large doses, could have harmful effects. For example,
          research studies have shown that doses greater than 10,000 IU of vitamin A are associated
          with birth defects;10 yet few bottles containing a supplement with vitamin A provide information
          on maximum dose.

          Exceeding the recommended dose could potentially present a significant public health problem.
          Prevention magazine extrapolated from the results of a recent survey and estimated that about
          7.3 million consumers of vitamins and minerals, 4.5 million consumers of herbal remedies, and
          3.8 million consumers of specialty products take more than the amount recommended on the
          label.11 Overdosing is of particular concern for consumers who are taking supplements to treat
          or prevent medical conditions.

          Many labels provide insufficient information about the medical conditions or
          populations for which the supplement may be contraindicated. Sixty-one of the 100
          labels we reviewed did not mention specific contraindications. The cautions for particular
          populations on the remaining products greatly varied in the scope and specificity of the
          information they conveyed. We found this variability even among supplements containing
          identical ingredients in identical doses, which clearly have equivalent safety risks (see box).

                                                                      Many of our interviewees, especially
              Precautionary Information on 60 mg Gingko Biloba        the health professionals and consumer
              Supplements:                                            advocates, were particularly concerned
              Supplement 1: “If you are taking a prescription         about the lack of warnings on
              medicine, such as an anticoagulant agent, are           supplements for women who are
              pregnant or are lactating, please contact your doctor   pregnant or nursing. They believed
              before taking this product.”
                                                                      that, unless studies have proven
              Supplement 2: “If you are taking medication, facing     supplements to be safe for women who
              surgery or have bleeding problems, consult your         are pregnant or nursing, labels should
              physician before taking this product.”                  automatically contain a precautionary
              Supplement 3: No information given.                     statement. Seventy-one of the 100
                                                                      labels we reviewed did not have such a
                                                                      statement. Others expressed concern
                                                                      about the lack of specific



Dietary Supplement Labels: An Assessment                        12                    OEI-01-01-00121
          warnings for the elderly, who metabolize chemical substances more slowly, and for children,
          who may need to take smaller doses or should avoid use of supplements completely. None of
          the supplement labels we reviewed contained cautions for the elderly and only 13 mentioned
          special considerations for children. FDA has recently declared its intent to propose a rule
          requiring the inclusion of warning statements for women who are or may become pregnant.

          Many labels provide insufficient information on potential interactions with other
          supplements, over-the-counter drugs, or prescription drugs. Eighty-seven of the 100
          labels we reviewed did not list interactions
          with other products. When they did, we
                                                            Precautionary Information on SAMe 200 mg
          found great variability in the information        Supplements:
          provided about interactions. For example,
          the SAMe products we reviewed, all                Supplement 1: “If you are pregnant,
          containing 200 milligrams, contained various      breastfeeding or are taking antidepressant
                                                            medication, consult your physician before using
          levels of detail about interactions (see box).    this product. Take this product under medical
          Given the wide variability in information         supervision if you have a bipolar disorder.”
          provided and terminology used, it is not
          surprising that consumers have difficulty         Supplement 2: “Persons who have a health
                                               12           condition should consult with a health care
          finding information on interactions.              professional before using this product.”
          According to Prevention magazine, nearly a
          third of consumers report taking supplements      Supplement 3: No information given.
          in combination with prescription drugs or
          with over-the-counter (OTC) medicines,
          which suggest an important place for information on interactions on the label.13

          Many labels provide insufficient information on potential adverse reactions or side
          effects that consumers may experience. Eighty-nine of the 100 labels we reviewed did not
          list possible adverse reactions or side effects. Yet, the Dietary Supplement Education Alliance
          states that “side effects are possible with any dietary supplement.”14 This lack of information on
          the label means that consumers may not know if a symptom they are experiencing should be
          anticipated, or whether it is one that should alert them to discontinue use and seek care from a
          qualified health professional. This may compromise consumers’ ability to make an informed
          choice about what supplements are appropriate for them.

          In the 11 cases where the labels did contain information on potential adverse reactions or side
          effects, they often failed to provide information on whom to contact in case of an adverse event.
          Seven of those 11 labels did not carry language calling for consumers to contact a health
          professional in case of accidental ingestion/overdose. None of the 11 supplements carried
          FDA’s Medwatch phone number for consumers to alert FDA of any serious reactions or
          problems they may experience in taking a supplement. Yet, according to Prevention
          magazine, 12 percent of herbal consumers (about 11.9 million people) and 13 percent of
          specialty product users (about 6.5 million people) say they have experienced a side effect or
          adverse reaction. 15



Dietary Supplement Labels: An Assessment               13                                OEI-01-01-00121
          Many labels lack information on supplement expiration. Twenty-five of the 100 labels
          we reviewed did not have an expiration date. Of the 75 labels that did include expiration dates,
          15 were smudged, faint, or otherwise hard-to-read, making it difficult for consumers to find and
          to read this information.

          There was some disagreement among the stakeholders that we interviewed about the
          significance of the lack of expiration dates on supplements. Some pointed out that an expiration
          date can provide important information about the extent to which a supplement maintains its
          labeled potency, purity, and physical characteristics. Without an expiration date, it would be
          impossible for consumers to determine whether a supplement is still potent. Others believed
          that while an expiration date is theoretically important, it is of limited value on supplements
          because no uniform method exists for determining the expiration date. In fact, one FDA official
          told us that some manufacturers put expiration dates on supplements for marketing purposes, to
          give supplements “an aura of respectability.” In such a case, the existence of an expiration date
          is not only misleading to consumers, but may also be meaningless.


                                     Directions for use are often insufficient.

          While DSHEA allows for supplement labels to contain information about the “directions or
          conditions of use,” this information is not required. The only information that must be present
          on labels is a recommended serving size, which is defined as the “amount recommended for
          consumption per an eating occasion.” There is no requirement that labels disclose the number
          of servings necessary to achieve the claimed benefit, or under what conditions those servings
          should be taken to achieve maximum effectiveness. As a result, labels often lack sufficient
          information about how and when consumers should take supplements to achieve the benefits
          claimed on the supplement label.

          Dosage information is often unclear. There is great variability in the directions for use, and
          how that information is communicated on supplement labels. Several factors account for the
          confusion. First, the serving size and recommended daily dose need not be the same. Labels
          are not required to make clear the number of servings necessary to consume an effective daily
          dose. Second, locating information about the directions of use can be difficult. While the
          serving size is prominently displayed as part of the Supplement Facts panel, information on
          additional directions for use is usually buried in the label. While 99 of the 100 supplement
          labels that we reviewed did contain a section on directions for use, in many cases it was difficult
          to find.

          Variability in the disclosure of dosage information has a number of implications for the informed
          and appropriate use of supplements by consumers. It makes comparison shopping for
          supplements difficult, as it requires consumers to multiply (or divide, depending on the
          instruction) the serving size by the recommended number of occasions for supplement intake in
          order to understand the total daily dose that they are consuming. It can also contribute to
          noncompliance. Consumers may not understand that they have to take multiple pills to get the
          desired effect. Furthermore, if consumers switch supplement brands, they may not be aware of
          a change in dose or intake pattern.

Dietary Supplement Labels: An Assessment                 14                           OEI-01-01-00121
          Finally, sometimes dose information is                   Dose Information Can Be Confusing:
          described in relation to an effect on the
          structure or function of the body, but the        Supplement A (Memory Enhancing Supplement)*

          boundaries of that symptom may not be                C To maintain memory function, take 1 or 2
          clear. In our review of directions for use           capsules daily.
          for 100 labels, we found 8 products in
                                                               C To enhance memory function, intake can vary
          which the dosage depended on the                     depending on individual needs and may be
          severity of the condition. Yet we could              increased up to 6 capsules daily.
          not find definitions for the terms used on
                                                               C For severe memory loss, consult your
          the label, such as “severe memory loss,”
                                                               physician.
          “individual needs” and “intensive use,” to
          differentiate between doses (see box).            Supplement B (for Improving Mental Sharpness)

                                                               C Take one tablet twice daily.
          Many labels do not specify a minimum
          amount of time for which the product                C For intensive use, take up to two tablets
          should be taken before consumers can                twice daily.

          expect to see an effect. Ninety-five of        * The following information was listed on the package
          the 100 labels we reviewed did not list the    insert; the label referenced this insert.

          minimum duration of use. Furthermore,
          the 8 mini-packages in our collection
          (which contained only one serving each) did not make clear to consumers that multiple servings
          of the supplement would be necessary to achieve the label claims. Unlike most over-the-
          counter drugs, which start working in a matter of minutes, dietary supplements such as St.
          John’s Wort or Saw Palmetto may take up to 6 weeks.

          However, many consumers do not understand that supplements often take longer than
          prescription and OTC drugs to take effect, and may stop supplement use within a month of
          taking a supplement if they do not see results.16 In fact, a recent study by the Dietary
          Supplement Education Alliance found that one in five consumers erroneously believes
          supplements produce a benefit within a week.17

Labels Often Fail to Present Information in a Manner that Facilitates Consumer
Understanding.

          To help consumers make informed and appropriate choices about supplement use, a dietary
          supplement label should not only have adequate information but also present that information in
          a way that facilitates consumer understanding of the supplement. FDA recognized the
          importance of label presentation when it revised food labels in 1993 and OTC labels in 1999.

          However, neither DSHEA nor other federal regulations address label presentation for dietary
          supplements, except in requiring a Supplement Facts panel and the word “supplement” on the
          front panel of the label. With few federal guidelines on label presentation, manufacturers print
          and organize label information in a variety of ways. This can lead to great innovation on the
          part of manufacturers, but it can also add to consumer confusion and difficulty in finding
          important label information.

Dietary Supplement Labels: An Assessment               15                                   OEI-01-01-00121
                                           No standardized format exists.

          In designing supplement labels, manufacturers may follow many different formats, use varying
          terminology, and sometimes even provide inconsistent information, even across similar
          substances. The lack of a logical and systematic framework for presenting label information
          may make it difficult for consumers and health professionals to locate and read important
          information and to select the most appropriate supplement.18

          Information placement often varies. In our review of 100 supplement labels, we found that
          safety information did not have a consistent position in relation to the front panel. Of the 26
          supplements sold in boxes, 9 had safety information on the back panel, 3 on side panels, and
          14 did not have the information at all. Of the 66 supplements sold in bottles, 13 had safety
          information to the right of the front panel, while 14 had the information to the left. We found
          similar inconsistencies in the placement of directions for use information: 32 had the information
          listed above the Supplement Facts panel, 17 below, 17 to the right, 5 to the left, and 28 on the
          opposite side. With such inconsistent placement of information, consumers may find it difficult
          to locate the information they need. For example, when asked to identify and read aloud
          claims, safety information, and standardization symbols and statements, participants in our focus
          groups spent several minutes looking at the label, often needing assistance finding the
          information or having to read through the entire label first.

          Headings for identifying information are often inconsistent. Headings can provide
          important visual clues to help consumers quickly distinguish between different types of
          information. In its proposed OTC label
          revisions, FDA identified uniform headings     Directions for use and safety information can
          and subheadings as one of three                have many different headings on supplements
          contributing factors to the readability and    labels:

          understanding of labels. However, in our         Directions for use:                Safety:
          review of 100 supplement labels, we              1. Recommendation(s)               1. Warning(s)
          found several different headings that            2. Recommended Dose(age)           2. Note
          referred to similar information (see box).       3. Recommended Adult Intake        3. Caution
          Of the 44 labels that disclosed safety           4. Suggested  Use                  4. Precaution
                                                           5. Directions for Adult Use
          information, 9 did not have a heading to
          draw attention to that information, and 4
          included that information in the section on
          directions for use.



                             Supplement labels had few distinguishing features.

          In its 1997 label regulations, FDA aimed to distinguish supplements from other products
          through requiring the title “Supplement Facts” for the nutrition panel and the word “supplement”
          on the front panel. However, these measures may be insufficient in distinguishing supplements
          from other self-care products, given the proximity of supplements to other types of self-care
          products. First, supplements are often placed near

Dietary Supplement Labels: An Assessment                16                              OEI-01-01-00121
          OTC drugs, homeopathic products, and functional foods in stores. Second, some supplements
          share similar ingredients with these products; for example, both senna and cascara can be sold
          as an herbal supplement and as an OTC drug.

          Supplement claims are often indistinguishable from OTC claims. In its final rule for
          structure/function claims, FDA allowed supplement labels to contain claims previously
          authorized for OTC drugs as long as the labels carried the mandatory FDA disclaimer and
          otherwise met the requirements set forth in DSHEA. For example, supplements for motion-
          sickness can carry a structure/function claim “for the prevention and treatment of nausea,
          vomiting, or dizziness associated with motion,” and supplements to promote sleep can carry a
          structure/function claim “for the relief of occasional sleeplessness.” However, as discussed
          earlier in the report, the FDA disclaimer does little to alert consumers to the presence of a
          structure/function claim. Unable to distinguish between supplement structure/function claims
          and OTC claims, consumers may believe that OTC drugs and supplements are interchangeable.

          Language and illustrations on supplement labels may be suggestive of pharmaceutical
          products. In our review of 100 supplement labels, we found statements that the supplement is
          “sold through physicians’ offices and pharmacies,” or is “doctor recommended.” Some
                                                          supplement labels contained pictures of people
                                                          wearing physician lab coats and stethoscopes.
                   A Supplement or a Medicine?
                                                          Some supplements also had company names
                    “Prescribed Choice”                   and trademarks that sound like they could be
                                                          pharmaceutical products (see box). We also
                    “Natural Medicine”	
                                                          found a few supplements made by well-known
                                                          pharmaceutical companies, which might lead
                                                          consumers to believe that supplements are the
          same as pharmaceutical products. While such practices may be technically allowed under FDA
          regulation, our interviewees raised concerns that they may lead to false expectations.
          Supplements bearing structure/function claims are expressly not intended to diagnose, treat,
          cure, or prevent any disease.


                          Complex language and small font size inhibit readability.

          Certain users of supplements may benefit from visual cues that highlight important information
          and from simple language that increases readability. This may be particularly true for elderly
          consumers and nonnative English speakers. However, we found that many supplement labels
          lacked visual cues and used complex language, preventing a broad range of consumers from
          easily reading and understanding label information.

          Font size is often inadequate for many consumers. Federal regulations allow
          manufacturers to use a minimum 4.5-point type size on supplement labels. By contrast, FDA
          determined that a 4.5-point type size for OTC drugs was too hard to read by consumers,
          especially those over 51 years old, and thereby mandated a minimum 6-point

Dietary Supplement Labels: An Assessment             17                             OEI-01-01-00121
          type size. Many of the elderly consumers in our focus groups complained that they had
          difficulty reading supplement labels due to their small font size; some participants recounted
          bringing a magnifying glass to the store to ensure that they could adequately read the label.
          When asked to read supplement labels, several health professionals in our focus groups also
          had difficulty.

          Some supplement labels use complex language. We found that some consumers in our
          focus groups were unable to pronounce and understand safety information printed on
          supplement labels. These consumers expressed confusion over medical terminology such as
          “anticoagulant,” and preferred safety information to be in simple language. One participant said
          that claims, like the FDA-approved qualified claim for omega-3 fatty acids, are too “wordy,”
          discouraging consumers like him from reading the label. A few pharmacists in our focus groups
          also told us about patients asking them to “translate” the label information into more readable
          language.


                           Information on benefits and risks is often imbalanced.

          Federal laws and regulations do not formally require a supplement label to balance negative and
          positive messages. However, FDA does require supplement manufacturers to print certain
          factual information and to disclose “material facts.” But, because FDA has yet to define the
          material facts provision, industry representatives told us that supplement manufacturers have
          varying criteria for disclosing safety information, contributing to the imbalance of label
          information.

          Limited space given to risks. Thirty-eight of the 69 supplement labels in our sample had
          statements about a supplement’s potential benefits but did not disclose any safety information.
          Of the supplements that provided safety information, most used fewer lines for the safety
          information than for the product’s benefits, and a few used smaller fonts. Industry
          representatives we interviewed said that supplement labels play a major role in marketing, and
          raised concerns that without federal standards for required safety information manufacturers
          may inconsistently highlight the value and benefits of supplements over risks or special
          considerations.


     Websites referenced on labels may not provide consumers with accurate information.

          Given the limited space on supplement labels, many manufacturers reference Internet websites
          on their labels as a source for additional information. In our review of 100 supplement labels,
          we found that 45 labels contained website references. The Internet is an emerging source of
          health information, with potential to provide more information about supplements beyond the
          label. Many of the consumers and health professionals in our focus groups told us that they
          perceived website references as useful ways to get additional information.



Dietary Supplement Labels: An Assessment             18                              OEI-01-01-00121
          Some websites contain inaccurate and misleading information. The Federal Trade
          Commission, in partnership with FDA and other government agencies, has found that
          “examples of questionable products being peddled on the Web abound.”19 These agencies
          discovered over 200 websites fraudulently claiming that dietary supplements and other products
          could treat illnesses like anthrax.20 Between October 1999 and August 2001, FTC received
          over 20,000 hits from consumers accessing its health-related “teaser” Websites that mimic sites
          that the agency has found to provide fraudulent information. A 2001 General Accounting
          Office report also highlighted how Websites that sell supplements geared to the elderly may use
          misleading and inaccurate claims.21

Several Factors Inhibit Supplement Labels From Adhering to Our
Template.

Lack of clearly defined FDA standards.

          Supplement manufacturers conduct business in a highly competitive marketplace. Discount
          retailers, pharmacies, and grocery stores have begun to manufacture their own brands of
          dietary supplements, and to form partnerships with Internet companies to market supplements.
          Pharmaceutical companies have also entered the supplement industry, using their established
          brand names in prescription drugs as a marketing advantage in selling supplements.

          In this environment, uniform standards that delineate a baseline of acceptable label practices are
          vital in ensuring that both well-established and new manufacturers label their supplements
          accurately and consistently. Without such standards, manufacturers do not have the tools to
          create or sustain a level playing field. Below we identify three key areas where standards are
          lacking.

          No guidance on what constitutes a material fact. The federal Food, Drug, and Cosmetic
          Act requires manufacturers to disclose on the label “facts material...to consequences” that may
          result from taking a supplement. FDA stressed the importance of the material facts provision in
          its structure/function final rule, and listed clarification of the material facts provision as a B-list
          priority in the Center for Food Safety and Applied Nutrition’s (CFSAN) 2001 Program
          Priorities. However, FDA has not taken steps to determine the level of evidence necessary for
          a safety risk to become a material fact, what supplements currently fall under the material fact
          provision, and what language may be used on the label to describe the material fact.
          Manufacturers acknowledge that FDA makes efforts to alert the public and industry of harmful
          products through its website and letters to industry and health professionals, but criticize these
          efforts as not being enough to ensure consistent labels.

          Without a publicly articulated policy by FDA, manufacturers do not operate on a level playing
          field. Manufacturers told us that, without written guidelines, they have few ways to determine
          which products fall under the material facts provision. While a number of manufacturers put
          warning information on their labels in response to public concerns,

Dietary Supplement Labels: An Assessment                19                               OEI-01-01-00121
          they voiced concern that too many warning statements on labels would overwhelm consumers,
          causing them to ignore the safety information altogether.

          To further complicate matters, a number of states have begun to require warning statements for
          certain supplements. For example, Texas requires warning statements for supplements
          containing the stimulant ephedra, and California requires warning statements on supplements
          containing dieter’s teas. In recent months, a number of other states and localities have
          considered requiring warning statements for products containing ephedra. Many interviewees,
          particularly industry representatives, raised a concern that variations in state warnings can cause
          confusion among consumers and frustration for manufacturers. For example, Texas requires
          specific warning language on ephedra supplements and requires that manufacturers list FDA’s
          toll-free Medwatch telephone number on the label. By contrast, the State of Ohio does not
          have a required warning statement for ephedra supplements. It does, however, require a
          number of other pieces of information to appear on the label, such as a maximum recommended
          dose. The Texas warning is silent on the issue of maximum dose for ephedra supplements.

          In 2001, the Federal Trade Commission (FTC) took six enforcement actions against individual
          companies making unfounded claims on the Internet. As part of the settlement, the FTC
          required two companies promoting the herb St. John’s Wort and one manufacturer of ephedra
          to disclose warnings of potential interactions on their labels, advertisements, and promotional
          materials. It is significant to note that FTC’s required warning statement for ephedra differs
          from the ones required by most states. For example, the FTC statement mentions risk of injury
          that “may include heart attack, stroke, seizure, or death,” whereas the warning in Texas only
          requires that the supplement “may cause serious adverse health effects.” Yet, a number of
          manufacturers told us they are concerned that FTC’s actions may cause confusion, as some
          manufacturers may interpret FTC’s actions as applying to entire categories of products, when in
          fact they only apply to the offending companies.

          Both industry and consumer groups have called for FDA to define material facts and to issue
          guidance or regulation accordingly. To fill this regulatory void, several of the larger trade
          associations have developed a list of ingredients that should carry safety information; all
          member companies manufacturing supplements containing these ingredients must carry the
          safety information on labels. While some non-member companies do adhere to these industry
          guidelines, others do not. The guidelines are voluntary and thus non-members have little
          incentive to follow them.

          No guidance on the evidence needed for substantiation files. Manufacturers are required
          to have substantiation for each structure/function claim made on a label. However, FDA has yet
          to define what level or type of evidence manufacturers should have even though it identified
          substantiation as a priority in CFSAN’s Ten-Year Strategic Plan. In some cases, the
          substantiating evidence behind structure/function claims appears

Dietary Supplement Labels: An Assessment              20                              OEI-01-01-00121
          to be quite weak. For example, at a FDA Dietary Supplement Stakeholder Meeting in July
          1999, a participant noted that, when she asked manufacturers of chitin for documents
          substantiating their claims, “98% of [it] has nothing to do with the claim made. The other 2%
          has to do with animal research.”22

          Given the variability in substantiation data, manufacturers told us it is difficult to achieve a level
          playing field. However, manufacturers also told us that they are reluctant to make
          substantiation data public because companies do not have patent protection for supplements.
          At the same time, manufacturers said that they would be more confident in the quality of the
          data if FDA reviewed substantiation files.

          No guidance on the use of terms and phrases of product quality. Neither FDA nor
          industry groups have defined what constitutes label claims, such as “pure,” “natural,” and
          “standardized,” and phrases, such as “clinically proven” and “doctor recommended.”
          Manufacturers are frequently printing these terms and phrases on supplement labels as a way to
          market their supplements. Often, symbols and stamps, such as a gold-colored emblem,
          accompany the terms and phrases to bring attention to the supplement’s quality claim. Our
          focus groups confirmed that such terms and phrases appeal to them and elicit an additional level
          of trust in the product. But, without uniform standards established by FDA or by industry
          groups, manufacturers cannot compare the quality of their products or hold each other
          accountable.

Few measures for ensuring product authenticity.

          No official monograph system for supplements. Monographs can synthesize authoritative
          traditional and scientific literature on supplement properties, production, and use. Monographs
          may also provide information about health benefits and risk for individual ingredients as well as
          information on safe doses. Without official monographs for supplements, manufacturers lack
          uniform standards against which to produce and label supplements, resulting in a wide spectrum
          of supplement preparations and recommended uses.

          In the absence of federally sanctioned monographs, organizations, such as the American Herbal
          Pharmacopeia, United States Pharmacopeia, and American Botanical Council, have published
          monographs on their own and are in the process of developing more. While these serve as
          important steps toward a more uniform standard of supplement production and use, a number
          of concerns are associated with these private efforts. The monographs are voluntary, do not
          cover the same information, and do not represent the vast number of herbal products on the
          market. The monographs are costly and resource-intensive to design and, without steady
          funding streams, it is difficult for any one organization to make significant progress. Further,
          manufacturers may find it difficult to follow monographs because their criteria may require
          special machinery and procedures, like meeting GMPs, that only a few manufacturers are able
          to afford.

Dietary Supplement Labels: An Assessment                21                                OEI-01-01-00121
          No validated testing methods. According to DSHEA, FDA can test dietary supplements
          only using established and officially accepted testing methods.23 However, GMP regulations
          may not impose standards for which there is no current and available analytical methodology.
          As a result, neither FDA nor industry have adopted uniform methods of analysis for identifying
          and quantifying active constituents in botanicals and specialty supplements. Several
          organizations are trying to develop validated testing methods, but a lack of funding and cohesion
          hinder this costly and resource-intensive process. In part, efforts are slowed by the fact that
          many supplements work synergistically, and it is not clear what aspect of the supplements
          should be tested. A number of manufacturers have developed their own in-house validation
          procedures, yet there is little uniformity in how they test supplements.24 This may be one
          explanation for why independent laboratory analyses of supplement labels often reveal a
          different amount of active ingredient than the one disclosed by the manufacturer on the label.25

Limited wording of claims.

          Claims may not allow for clear communication of a supplement’s intended use. FDA
          regulations for structure/function claims, health claims, and qualified health claims make it
          difficult for manufacturers to clearly express the health benefits of supplements.

          Structure/function claims are limited because while they are allowed to describe health to the
          structure or function of the body, they cannot make references to any type of medical condition
          or illness. Structure/function claims cannot suggest that a supplement in any way treats,
          prevents, mitigates, or cures a disease. This creates a disconnect with the way consumers are
          using supplements, which is often for therapeutic benefit. A number of manufacturers we spoke
          with expressed frustration at having to use vague language so that their claim could meet the
          legal definition of structure/function claim.

          While health claims and qualified claims allow manufacturers to make explicit statements about
          reducing the risk of disease, they may also be of limited value in communicating intended use to
          consumers. In an attempt to make the state of current knowledge about supplements clear,
          FDA may in fact further confuse consumers by authorizing statements that are too long and too
          complex to be useful. Some of the manufacturers we spoke with stated that the language on
          health claims and qualified health claims was not “user-friendly.” FDA officials told us they do
          not test either health claims or qualified health claims on consumers prior to authorizing them.

          Little incentive exists for manufacturers to seek health claims. Given the current claims
          structure, manufacturers are most likely to use structure/function claims to communicate a
          product’s intended use. These are the easiest types of claims to make as they require no pre-
          authorization from the agency.




Dietary Supplement Labels: An Assessment             22                             OEI-01-01-00121
          If a manufacturer sought to develop a new health claim for a supplement, it would need to
          conduct extensive research or gather secondary evidence in order to meet FDA’s standard of
          “significant scientific agreement.” One industry guidance estimated that manufacturers typically
          need to submit between 20 and 30 studies to FDA for review. 26 Yet the manufacturer will not
          receive any reward for investing in that research. Once FDA approves a health claim, any
          manufacturer may use it at no cost.

          Manufacturers have a similar disincentive from seeking qualified health claims. At this point,
          manufacturers cannot seek a qualified health claim unless they have submitted a health claim,
          and it has been rejected for not meeting the principle of “significant scientific agreement.”
          Getting a qualified health claim approved can take a long time, and may involve long legal
          battles with FDA over the acceptability of wording. FDA has not yet defined what constitutes
          an acceptable level of evidence to make a qualified health claim, and it is likely that further legal
          battles will ensue over this issue. As a result, many manufacturers are hesitant to seek qualified
          health claims. However, as these claims evolve, they may gain popularity in the future.

Evidence Suggests that Consumers and Health Professionals Find
Supplement Labels of Limited Use.

Labels may be of limited use for consumers.

          Consumers look to labels for information
          about supplement safety and                       Illustrative statements from our focus groups of
          effectiveness, but often find labels of little    older adults about the limited usefulness of labels:
          use. They are particularly likely to read
          a supplement label the first time they            “Because they don’t tell you anything about side
                                                            reactions...I don’t believe the label sometimes...I’m
          purchase a supplement.27 They look to             awfully timid about [trusting] it.
          the labels primarily for information on
          directions for use, intended use,                 “Labels don’t say what they do for you. They just
          ingredients, and warnings, such as side           say that [the supplement] has this and that and the
                                                            other. But I don’t know what this that and the other
          effects, interactions, and                        are! Because of that, I have to ask my doctor or
          contraindications.28 But, as we indicated         pharmacist.”
          earlier, this important information is
          lacking or has shortcomings, which may            “It’s a major feat to look at most labels...the print is
                                                            so small...I don’t know how older people are suppose
          prevent consumers from using labels in            to read them. I can’t buy [supplements] unless I
          an informed and appropriate manner                have my magnifying glass.
          (see box).
                                                            “We read the label...but we don’t know enough to
                                                            tell what is good or bad. We don’t have the
          Even though consumers read labels, they           background to tell the difference.”
          appear to have limited



Dietary Supplement Labels: An Assessment                   23                                    OEI-01-01-00121
          confidence in the information that labels provide. According to a recent national survey by
          Prevention Magazine, the majority of consumers are not confident in the accuracy of
          information found on supplement labels. Only 32 percent of consumers who shop for herbal
          remedies reported that they were very confident in the accuracy of the labels, and only 34
          percent of those who shop for vitamins and minerals reported that they were very confident.
          Furthermore, nearly half of those surveyed by Prevention Magazine did not believe or did not
          know if dietary supplements provide the health benefits that they claim.29 Our focus groups
          pointed to mistrust of the label as one of the main reasons why consumers turn to other sources
          of information, such as newsletters, the Internet, and health professionals. Many of our focus
          group participants who had pre-existing medical conditions, like diabetes, recounted
          experiencing side effects and interactions that were not indicated on the label, which led them to
          no longer use the label as a primary source of information.

Labels may be of limited use for health professionals.

          Finding the label of limited usefulness, many consumers turn to other sources of information to
          decipher the label. Some rely on health professionals, such as physicians, pharmacists, nurses,
          and dieticians, to provide information about supplements and to advise them in taking
          supplements safely.30 During focus groups, health professionals told us that they view labels as
          important, because they are one of the few easily accessible information sources that relate
          specifically to the supplements their
          patients take. They also told us that         Illustrative statements from our focus groups of
          labels have the potential to be a key         health professionals about the limited usefulness of
          source of information for detecting           labels:
          interactions that their patients may
                                                        “I don’t use the label...labels are misleading...How am
          experience.                                   I suppose to advise my patients if I can’t believe
                                                          what’s on the label? These [supplement] products
          Like consumers, many health                     are not standardized or validated...I think this is a
                                                          tremendous problem...especially in terms of doing
          professionals find labels of limited
                                                          any reasonable counseling to patients.”
          usefulness (see box). During our focus
          groups, health professionals told us that   “I don’t use labels because I find them pretty
          the information they most often look for    useless, but luckily, pharmacists have access to good
                                                      reference materials.”
          on labels, such as active ingredient(s),
          substance preparation, dose, interactions   “It’s difficult for us [physicians], much less
          and contraindications, is lacking or has    consumers, to read the fine print.”
          significant shortcomings. Moreover,
          many found labels hard to understand,
          because they did not have enough
          general knowledge about dietary supplements. Recent studies have pointed out the limited
          knowledge many health professionals have of supplements. For example, a recent study
          reported that pharmacists scored an average of less than 50 percent on tests


Dietary Supplement Labels: An Assessment               24                                      OEI-01-01-00121
          measuring their knowledge of herbal medication.31 Similarly, a prior study found that nurse
          practitioners scored an average of 3.36 out of a possible 19 on a test measuring their
          knowledge of the use and contraindications of herbal medications.32 Focus group participants
          told us that they received little professional training in nutrition and herbal medicine while they
          were in school. The lack of training about dietary supplements makes health professionals all
          the more dependent on the label information provided by manufacturers.




Dietary Supplement Labels: An Assessment              25                               OEI-01-01-00121
                                           CONCLUSION
          Our analysis of 100 dietary supplement labels found that few reflected the label elements
          contained in our template. These findings were confirmed by our interviews and focus groups as
          well as by independent data analyses and professional literature. Our analysis also found that
          several barriers may prevent manufacturers from developing labels that can adhere to our
          template, and that the current state of supplement labels may limit the extent to which
          consumers and health professionals use labels.

          We recognize that FDA has numerous efforts underway to address the current state of dietary
          supplement labels, and that limited resources, limited scientific evidence about the safety and
          efficacy of supplements, and competing priorities inhibit FDA’s capacity to make timely
          progress (see Appendix C for a description of activities underway). Our analysis is designed to
          assist FDA as it addresses the legal framework related to dietary supplement labels, and as it
          reviews its standards for disclosing safety risks on labels, substantiating evidence related to
          label claims, and developing analytical methods and reference materials for testing supplements.




Dietary Supplement Labels: An Assessment            26                              OEI-01-01-00121
                                                                                                        APPENDIX A



         Template of Key Elements for Dietary Supplement Labels

According to DSHEA, a dietary supplement label should help consumers make informed and
appropriate choices about supplement use. For this inquiry, we developed a template of the key
elements for a dietary supplement label. This template is based on several sources, including a review
of 100 dietary supplement labels; 76 interviews with key stakeholders; data from industry groups and
independent research organizations; and a comprehensive literature review. Our intention is to set forth
a vision for supplement labels in terms of essential information and precepts for presenting information.
                    TEMPLATE OF THE KEY ELEMENTS FOR A DIETARY SUPPLEMENT LABEL

     Label Content:

     U Ingredients. It would fully and clearly disclose the ingredients contained in a supplement. The
     ingredient declaration would accurately reflect the amount of each dietary ingredient included in the
     supplement.

     U Intended Use. It would provide consumers with sufficient information about the range of uses for a
     supplement. All intended use claims would be based on accepted scientific evidence.

     U Safety Information. It would provide consumers with known safety information. This would include
     interactions, contraindications, and possible side effects and adverse reactions.

     U Directions for Use. It would provide consumers with adequate directions for use. The directions would
     include guidance on proper doses, if the information is available.

     U Product Information. It would identify the manufacturer, production source and batch, and information
     about the net quantity of contents found in the supplement.

     Label Presentation:

     U Standardized Format. It would present similar types of information in a similar order across
     supplements. It would use widely accepted terminology and headings.

     U Distinct Product Features. It would have a unique design, format, or specific language that assists
     consumers in distinguishing supplements from other self-care products.

     U Readability. The label would contain language that is easily understood by a broad group of consumers.

     U Balance. It would present information in a balanced manner. It would give fair treatment to benefits and
     risks, to claims and disclaimers, and to factual and marketing information.

     U Constructive Use of Space. It would seek to expand the limited label space through creative packaging
     and pointing consumers to alternative sources of information.




Dietary Supplement Labels: An Assessment                       27                                      OEI-01-01-00121
                                                                                  APPENDIX B




                      Information Included on Supplement Labels

Based on 76 interviews with consumers, health providers, industry representatives, and regulators, we
generated a template of the key elements of a dietary supplement label that can help consumers make
informed and appropriate choices about supplement use. In this report, we reviewed 100 supplements
to see how many of them adhered to our template. The table below summarizes our findings.

For the label analysis, we selected supplements that consumers commonly use, including some of the
vitamin, mineral, and herbal supplements that account for the greatest proportion of sales. Our sample
attempted to reflect the variety in brands and in packaging currently on the market; our sample
represents 36 manufacturers and 36 distributers. We obtained these supplements from retail stores in
the greater Boston area and from samples distributed at industry conferences. For more information on
our methodology, see Appendix D.


 Types of Information on Supplement Labels                                Number without that
                                                                          Information (n=100)

 Minimum duration of use
                                                             95

 Bioavailability of ingredients
                                                      94

 Active ingredients 
                                                                 93

 Possible adverse reactions or side effects
                                          89

 Possible interactions
                                                                87
 Maximum dose
                                                                        85

 Specific contraindications
                                                          61

 Purpose of the supplement
                                                            31

 Expiration date
                                                                     25

 Amount of individual ingredients in proprietary blends
                              15*

* Only 15 products in our sample of 100 were proprietary blends.




Dietary Supplement Labels: An Assessment                     28                 OEI-01-01-00121
                                                                                       APPENDIX C



                   FDA Initiatives Related to Dietary Supplements


Below we highlight several initiatives that FDA has recently initiated or completed:

Supplement Safety

     <	 Contract to Develop Safety Framework. FDA has contracted with the Institute of
        Medicine and the National Academy of Sciences to develop a framework for categorizing and
        prioritizing supplement ingredients based on safety. FDA expects the final report to be
        completed by September 2003.

     <	 Warning Statement for Pregnancy. In May 2001, FDA declared its intent to issue a
        proposed rule requiring warning statements for women, who are or may be pregnant, on all
        products making structure/function claims, unless they can prove that the products are safe for
        pregnant women.

Accuracy of Label Declarations

     <	 Consumer Health Information for Better Nutrition Initiative. In December 2002, FDA
        announced that it seeks to enhance the credibility of food and dietary supplement labels through
        the inclusion of more accurate, science-based information. This multi-part initiative includes the
        publication of guidance on qualified health claims for conventional foods and dietary
        supplements, strong enforcement of dietary supplement rules, and the establishment of an FDA
        task force on consumer health information for better nutrition.

     <	 Contract to Develop Reference Materials. FDA has an interagency agreement with the
        National Institutes of Health (NIH) and the Department of Commerce’s National Institute of
        Standards and Technology to develop reference materials from which to develop validated
        analytical methods for botanicals. Ephedra and kava kava are the first botanicals to be tested.

     <	 Contract to Develop Validated Analytical Methods. FDA has contracted with the
        Association of Analytical Chemists International and the NIH to produce analytical methods for
        ephedrine alkaloids and aristolochic acid.

Understanding of Consumer Needs

     <	 Health and Diet Survey. FDA issued a Federal Register notice in August 2001 for
        comment on its plans for conducting a survey to determine consumer opinion on uses and
        usefulness of labels.


Dietary Supplement Labels: An Assessment            29                              OEI-01-01-00121
                                                                                     APPENDIX C



Public Information and Outreach

     <	 Enhanced Website. FDA has recently redesigned and reorganized its dietary supplement
        website to make searches more intuitive and information more current and transparent, and has
        developed new information to fill in identified gaps. The website includes a number of key
        sections, including: Warning and Safety Information, Adverse Event Reporting, Industry
        Information and Regulations, Announcements and Meetings, and Questions and Answers.

     <	 On-line Publications. FDA has issued a document entitled “Tips for the Savvy Supplement
        User: Making Informed Decisions and Evaluating Information, ” which is available in both
        English and Spanish. It has also developed an electronic newsletter that gives interested parties
        access to key information and updates on dietary supplements, food labeling, and nutrition
        issues. Moreover, FDA has joined with the Federal Trade Commission (FTC) to publish
        “Miracle Health Claims: Add a Dose of Skepticism” to help consumers assess claims.

     <	 Stakeholder Email List. In 2001, FDA developed a list of key stakeholders to which it can
        quickly send out electronic notices about issues, such as safety alerts. This system replaces its
        fax-on-demand system.

     <	 Websites intended to Alert Consumers of Internet Health Fraud. As part of Operation
        Cure.All, FDA has joined with FTC to simulate websites that make misleading and false
        claims. Upon attempting to buy dietary supplements through these “teaser” websites,
        consumers are alerted about the purpose of the websites and are informed about ways to avoid
        becoming future victims of Internet health fraud.

Industry Guidance

     <	 Small Entity Compliance Guide for Structure/Function Claims. FDA issued guidance in
        January 2002 to clarify its January 2000 rule on structure/function claims for small businesses
        and consumers.

     <	 Regulatory Guidebook for Industry. The regulatory guidebook is being developed to
        provide manufacturers and distributors of dietary supplements a very basic introduction to the
        legal and regulatory requirements that must be met in order to market dietary supplements in the
        United States.




Dietary Supplement Labels: An Assessment            30                              OEI-01-01-00121
                                                                                         APPENDIX D



                                             Methodology


Label Analysis

          We performed an original analysis of 100 labels of products that consumers would recognize as
          dietary supplements. We obtained these supplements from supermarkets, pharmacies, and
          natural foods stores in the greater Boston area and from samples distributed at industry
          conferences. Our sample was judgmental. Without the existence of an official registry of the
          number and types of supplements on the market, we could not conduct probability sampling.

          We selected supplements that consumers commonly use, including some of the vitamin, mineral,
          and herbal supplements that account for the greatest proportion of sales (for example, vitamin
          C, calcium, ginseng, and soy).33 Our sample attempted to reflect the variety in brands and in
          packaging currently on the market; our sample represents 36 manufacturers and 36 distributers.
          We also sought to select supplements that could serve as effective visual aids in our consumer
          focus groups and that could provide examples of the perspectives we heard during our
          interviews.

          We tallied the number of labels that did not adhere to each of the key elements of our template.
          Two analysts independently reviewed the labels according to a detailed protocol reflecting the
          template’s elements and recorded their observations in an Access database; a third analyst
          made final determinations. See Appendix A for the template and Appendix B for a summary of
          the findings of our analysis.

Interviews and Focus Groups

          We conducted 76 interviews with key stakeholders. We spoke with each of the major
          supplement industry trade groups, consumer advocacy groups, private quality oversight
          organizations, professional nutrition associations, academic researchers, marketers, and
          practicing herbalists. With each group, we discussed the role of a supplement label in the ideal
          and current label shortcomings, and solicited their recommendations for reform.

          We also conducted interviews with federal and state regulators. We spoke with FDA officials
          at the Center for Food Safety and Applied Nutrition, the Center for Drug Evaluation and
          Research, and the Office of Regulatory Affairs, and National Institutes of Health officials in the
          Office of Dietary Supplements. In addition, we spoke with several state regulators who
          oversee food or supplement safety.

          To learn more about specific concerns facing particular groups of supplement users, we
          conducted our own focus groups with consumers and with health care professionals, and

Dietary Supplement Labels: An Assessment              31                               OEI-01-01-00121
                                                                                     APPENDIX D



          reviewed the findings of other focus groups. In cooperation with the Administration on Aging,

          we led five focus groups of elderly consumers who represented a diversity of cultural

          backgrounds, socioeconomic status, health condition, use of supplements, and use of

          prescription drugs. These focus groups took place in Massachusetts, Colorado, and

          California. We also, in partnership with the American Pharmaceutical Association and the

          American Geriatrics Society, conducted two focus groups of geriatricians and

          gerontologists and two groups of pharmacists with diverse geographic locations, practice

          settings, reliance on labels, and experience in advising patients. Finally, we reviewed the

          findings of FDA’s consumer focus groups on dietary supplement labels. 


Literature Review

          We reviewed relevant federal legislation, regulation, and program priority documents; position
          papers from consumer and industry groups; articles in peer-reviewed journals and trade press;
          transcripts from congressional hearings and FDA town meetings; and reports from Presidential
          commissions, federal evaluators, and government-sponsored colloquia on dietary supplements.
          We also reviewed consumer-oriented newsletters, books, advertisements, and Websites on
          supplement use.

          We obtained existing data from nationwide surveys on consumer use of dietary supplements
          and supplement labels. We looked at both the raw data and the findings from Prevention
          Magazine’s 1999 and 2000 surveys on dietary supplements, which were based on random
          samples of 2,000 people. In addition, we reviewed the findings of recent surveys from diverse
          federal, professional, academic, and private organizations.

          We also reviewed existing data on the economic characteristics of the supplement industry. We
          obtained statistics from FDA-commissioned research reports and the Nutrition Business
          Journal.




Dietary Supplement Labels: An Assessment            32                             OEI-01-01-00121
                                                                                   APPENDIX E



                                            Endnotes
1. Courtesy of Nutrition Business Journal. About 40 percent of the population uses supplements
often, and 30 percent takes them infrequently. Nutrition Business Journal obtained these figures from
a compilation of 13 consumer surveys. Individual consumer surveys, by groups, such as the Kaiser
Family Foundation, Yankelovich Partners, the Dietary Supplement Education Alliance, and Prevention
magazine, have found similar patterns in use over the past several years. The Center for Disease
Control and Prevention’s (CDC) third National Health and Nutrition Examination Survey (NHANES
III), conducted between 1988 and 1994, found that 40 percent of the Americans surveyed had taken a
dietary supplement in the month prior to the survey.

2. FDA estimated that the number of supplements on the market may range from 25,000 to 33,000
(29,000 is the midpoint of this range). Food and Drug Administration, Memorandum Re: Questions
Concerning Dietary Supplement Labeling, June 13, 2001.

3. NBJ’s Annual Overview of the Nutrition Industry VI, Nutrition Business Journal (2001) 5/6: 3, 7.

4. General Accounting Office, Food Safety: Improvements Needed in Overseeing the Safety of
Dietary Supplements and “Functional Foods,” GAO/RCED-00-156, July 11, 2000.

5. Food and Drug Administration, Dietary Supplement Enforcement Report. Retrieved from
http://www.fda.gov/oc/nutritioninitiative/report.html, December 27, 2002.

6. Herbals/botanicals accounted for $4,120,000 or 25 percent of supplement sales in 2000. NBJ’s
Annual Overview of the Nutrition Industry VI, Nutrition Business Journal (2001) 5/6: 7.

7. 21 C.F.R. sec. 104(h).

8. Food and Drug Administration, Center for Food Safety and Applied Nutrition, Consumer Studies
Team, Dietary Supplement Labeling Focus Groups, September 30, 1999.

9. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 75. According to this study, 12 percent of consumers have experienced a side effect from taking
an herbal product.

During the course of our research, we found examples of case reports, journal articles, and news
stories documenting side effects and adverse reactions associated with supplements. Many of these
articles also highlighted the importance of having adequate warnings on supplement labels:

     <	 Victoria Stagg Elliott, “Code Green: Seeing the Side Effects of Alternative Supplements,”
        American Medical News, March 5, 2001.


Dietary Supplement Labels: An Assessment           33                            OEI-01-01-00121
                                                                                   APPENDIX E



     <	 Evenson, “Supplements Pose Danger in Combination with Heart Drugs,” National
        Post/Chicago Sun-Times, March 21, 2002.

     <	 Jacqueline Stenson (2001) “The Herbal Frontier: The Promise and Peril of Supplements,”
        MSNBC, Retrieved from wysiwyg://64/http://www.msnbc.com/news/522365, June 12, 2001 .

     <	 Michael Ang-Lee et al., “Herbal Medicines and Perioperative Care,” Journal of American
        Medical Association 286 (July 11, 2001) 2: 208-216.

     <	 Lisa Chavis, “Pharmacy-Based Consulting on Dietary Supplements,” Journal of the American
        Pharmaceutical Association, 41 (March/April 2001) 2: 186-187.

10. K.J. Rothman et al., “Teratogenicity of High Vitamin A Intake,” New England Journal of
Medicine. 333 (November 1995) 21: 1369-73.

11. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 67. The survey found that 5 percent of users of vitamins and minerals, 5 percent of users of
herbal remedies, and 9 percent of users of specialty products take more than the amount recommended
on the label. The authors of the study then calculated the number of people in the U.S. population that
these percentages represent. Twenty-eight percent of consumers who took vitamins and minerals to
prevent a specific disease and 21 percent of consumers who took herbal remedies to treat a specific
disease have taken more than the recommended dose in order to more effectively treat symptoms.

12. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 61-65. The survey indicated that 23 percent of consumers taking herbal products had difficulty
finding information about possible interactions with prescription medicines; 20 percent had difficulty
finding information about warnings about possible interactions with over-the-counter (OTC) products;
and 21 percent had difficulty finding information on possible interactions with other supplements.
Furthermore, 16 percent of consumers taking vitamins and minerals found it difficult to find warnings
about possible interactions with prescription medicines, OTC medications, or herbal products.

13. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 37-39. Prevention Magazine found that 31 percent of consumers take dietary supplements in
combination with a prescription medicine, and 30 percent of consumers take dietary supplements in
combination with an OTC drug.

14. This quotation pertains to many of the supplements listed on the Dietary Supplement Information
Bureau Website at www.supplementinfo.org. For example, we found this statement in the side effects
section of the page pertaining to the supplement kava. Retrieved from
http://content.intramedicine.com/dse/consumer/monoAll-style.asp?objID=100070&ctype=ds&mtyp=1,
May 10, 2002.

Dietary Supplement Labels: An Assessment          34                             OEI-01-01-00121
                                                                                     APPENDIX E



15. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 74-77.

16. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 29. Prevention data shows that 66 percent of users of herbal supplements and 61 percent of
users of specialty supplements will use these supplements for up to a month without results.

17. Dietary Supplement Education Alliance, “The Key to Consumer Confidence in Dietary
Supplements,” FDLI Update (2001) 6: 14.

18. Food and Drug Administration, Center for Drug Evaluation and Research, Consumer
Comprehension and Preference for Variations in the Proposed Over-The-Counter Drug Labeling
Format, December 3, 1998, 2.

19. The FTC found these fraudulent websites through Operation Cure.All, a coordinated law
enforcement and consumer education campaign between federal and state agencies. It targets Internet
scams for herbal products, other supplements and devices that purport to cure diseases. For more
detail on this effort, see: Federal Trade Commission, Operation Cure.All Wages New Battle in
Ongoing War Against Internet Health Fraud, released June 14, 2001. Retrieved from
http://www.ftc.gov/opa/2001/06/cureall.com, November 6, 2001.

20. Federal Trade Commission, FTC Cracks Down on Marketers of Bogus Bioterrorism Defense
Products, released November 19, 2001. Retrieved from
http://www.ftc.gov/opa/2001/11/webwarn.htm, January 30, 2002.

21. Swindlers, Hucksters, and Snake Oil Salesmen: The Hype and Hope of Marketing Anti-Aging
Products to Seniors Before the Senate Special Comm. on Aging, 107th Cong., 1st Sess. 2
(September 10, 2001) (statement of Senators John Breaux and Larry Craig).

Also, in the spring of 1997, pharmacy students evaluated Internet information about 11 popular herbal
products. They found that 45 percent of the claims were true, 6 percent were false, 2 percent were
meaningless, and 47 percent undetermined when compared to peer-reviewed journals. When
evaluated for substantiation, only 36 percent of the Internet claims were substantiated, of which only 40
percent were found to be true. See Deanne Nowak and Thomas Zlatic, “Herbal Products and the
Internet: A Marriage of Convenience,” Journal of the American Pharmaceutical Association,
Retrieved from http://www.aphanet.org/PInfo/JaPha_Mar-Apr_99_Article.htm, February 13, 2001.

22. The American Dietetic Association has cited examples of companies that present unpublished
studies, animal data, and consumer testimonials as substantiating evidence for their claim. The State of
Texas, which requests substantiation files for about 50 percent of the supplements that they regulate as
drugs, has found that, in almost all cases, the manufacturer was not able to provide adequate

Dietary Supplement Labels: An Assessment           35                              OEI-01-01-00121
                                                                                      APPENDIX E



substantiation data.

23. 21 C.F.R, sec. 101 requires FDA to use the Association of Analytical Communities International’s
(AOAC) methods of analysis when available and applicable. AOAC has a compendium for vitamins
and minerals based on validated methods, and FDA uses these methods in testing products. However,
AOAC is still in the process of developing such methods for botanicals and other dietary supplements.

24. Judy Foreman, “St. John’s Wort: Less than Meets the Eye. Globe Analysis Shows Popular Herbal
Antidepressant Varies Widely in Content, Quality,” Boston Globe, January 10, 2000, C1.

25. Joseph M. Betz, “Responsible Commerce and Self-Regulatory Initiatives,” American Herbal
Products Association Report, Spring 2001.

26. I. Scott Bass and Charles J. Raubicheck, Marketing Dietary Supplements (Washington, DC:
FDLI, 2000), IV-19.

27. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 57-58. Seventy-six percent of consumers taking vitamin and mineral supplements, and 79
percent of consumers taking herbal supplements always read the label the first time they buy
supplements.

28. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 59. The consumers in our focus groups listed these same components when we asked them
what they consider the most important information on supplement labels.

29. Ibid., 13 and 71.

30. Ibid., 15. According to the Prevention Magazine survey, 26 percent of consumers turn to health
professionals for information about dietary supplements. Moreover, a number of our focus group
participants told us that they rely directly on the advice of physicians and pharmacists, and others said
that they subscribe to newsletters and buy books on supplements, because “they are written by people
we can trust...like physicians and pharmacists.”

Also see, Sandra Levy, “Healthcare 2000 Reveals Consumer View on R.Ph.s,” Drug Topics, October
4, 1999. Retrieved from http://dt.pdr.net/be_core/d/index.jsp, April 12, 2001.

31. Ziba Chang et al., “Pharmacists’ Knowledge and Attitudes Toward Herbal Medicine,” The Annals
of Pharmacotherapy, 34 (June 2000): 710-715.

32. Ibid., 711.



Dietary Supplement Labels: An Assessment            36                              OEI-01-01-00121
                                                                            APPENDIX E



33. Dietary Supplement Education Alliance, The Market for Dietary Supplements. Retrieved from
http://www.supplementinfo.org/industry/marketplace.htm, November 19, 2001 Also see NBJ’s Annual
Overview of the Nutrition Industry VI, Nutrition Business Journal (2001) 5/6.




Dietary Supplement Labels: An Assessment      37                          OEI-01-01-00121
                             ACKNOWLEDGMENTS


This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector General
for Evaluation and Inspections in Boston and Joyce M. Greenleaf, MBA, Assistant Regional Inspector
General. Other principal Office of Evaluation and Inspections staff who contributed include:

Elizabeth Robboy, Project Leader                               Joseph Rutherford, Program Specialist
Chaletta Clark, Program Analyst                                Genevieve Nowolinski, Program Specialist
Sara Schulman, Program Analyst




                               For information or copies of this report, please contact

                                         the Office of Inspector General’s

                                      Public Affairs office at (202) 619-1343.


                Reports are also available on the World Wide Web at our home page address:

                                           http://www.oig.hhs.gov/



Dietary Supplement Labels: An Assessment               38                                  OEI-01-01-00121
